Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





  APPLYING THE NATIONAL

CORRECT CODING INITIATIVE TO

    MEDICAID SERVICES





          , SERVICe"



                       Inspector General

                         October 2004
         q",cf::W
                       OEI - 03-02- 00790
                 Office of Inspector General
                                         ://oi hhs.

The mission ofthe Offce ofInspector General (OIG), as mandated by Public Law 95- 452
as amended , is to protect the integrity of the Department of Health and Human Services
(HHS) programs , as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits
investigations , and inspections conducted by the following operating components:

Office of Audit Services
The OIG' s Office of Audit Services (OAS) provides all auditing services for HHS , either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste , abuse , and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG' s Offce of Evaluation and Inspections (OEI) conducts short- term management
and program evaluations (called inspections) that focus on issues of concern to the
department , the Congress , and the public. The fidings and recommendations contained
in the inspections reports generate rapid , accurate , and up- to-date information on the
effciency, vulnerabilty, and effectiveness   of departmental programs. The OEI also
oversees State Medicaid fraud control units , which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG' s  Office of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of 01 lead to criminal
convictions , administrative sanctions , or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG , rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG' s internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act , develops and monitors corporate integrity agreements
develops compliance program guidances , renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
                     The National Correct Coding Initiative (eCl) consists of automated
                     edits used to evaluate Medicare claim submissions when a provider
                     bils more than one service for the same beneficiary and same date of
                     service. Although use of the CCI edits is mandatory in the Medicare
                     program , State Medicaid agencies are not required to use these edits
                     in processing their claims. Based on a 2003 survey of all State
                     Medicaid agencies , we found that most States do not use the Medicare
                     CCI edits. Only seven States use all or some of these coding edits.
                     Our review of 2001 claims data available for 39 State Medicaid
                     agencies found that these 39 States paid $54 millon for servces that
                     would have been denied based on the CCI edits. Using these edits
                     would promote correct coding by providers and reduce Medicaid
                     expenditures for services that the edits would deny. Therefore , we
                     recommend that the Centers for Medicare & Medicaid Services (CMS)
                     encourage States to explore the use of Medicare CCI edits within their
                     Medicaid programs. CMS concurred with our recommendation.




OEI. 03- 02. 00790   APPLYING THE NATIONAL CORRECT CODING INITIATIVE TO MEDICAID SERVICES
                      OBJECTIVE
                      To determine (1) the extent to which State Medicaid agencies use the
                      National Correct Coding Initiative (eCl) edits or similar edits and
                      (2) the extent to which the Medicaid program paid for services that
                      would have been denied if State Medicaid agencies implemented the
                      CCI edits used by the Medicare program.

                      BACKGROUND
                     The Medicaid program was established in 1965 under Title XIX of the
                     Social Security Act. Financed by a Federal-State partnership, the
                     Medicaid program covers health services for approximately 40 million
                     people including children , the aged , blind , or disabled , and people who
                     are eligible to receive federally assisted income maintenance payments.
                     Each State Medicaid agency administers its own program within
                     Federal guidelines , and coverage policies may vary from State to State.
                     In January 1996 ,            the Centers for Medicare & Medicaid Services (CMS)
                     implemented the CCI in the Medicare program. This initiative was
                     developed to promote correct coding of health care services by providers
                     and to prevent Medicare payment for improperly coded services. The
                     initiative consists of automated edits used to evaluate claim
                     submissions when a provider bils more than one service for the same
                     beneficiary and same date of service.
                     To determine if State Medicaid agencies use CCI edits or any similar
                     edits , we conducted a mail survey of Medicaid agencies in all 50 States
                     and the District of Columbia. Forty- nine of the fifty. one agencies
                     responded to the survey.
                     To determine if State Medicaid agencies paid for services that would
                     have been denied based on the CCI edits , we matched the fourth
                     quarter 2001 CCI edits against CMS' s Medicaid Statistical Information
                     System claims data for the 39 States that had provided 2001 data at the
                     time of our review. We then calculated the amount States paid for those
                     services that the edits would have denied.


                     FINDINGS
                     Most State Medicaid agencies do not use the National Correct
                     Coding Initiative edits. 
         Only 7 of 49 State Medicaid agencies that
                     responded to our 2003 survey reported that they use CCI edits in

OEI- 03. 02- 00790   APPLYING THE NATIONAL CORRECT CODING INITATIVE TO MEDICAID SERVICES
                     processing their claims. These States do not all use CCI edits to the
                     same extent. Two States reported using all CCI edits , three States use
                     the edits only for particular types of services ,            and two States use only a
                     small number of the edits.
                     Another eight States use a commercial edit package that includes edits
                     to prevent payment for services by a provider on the same day for the
                     same beneficiary. Commercial edit packages may be purchased by the
                     States and modified to accommodate each State s coverage policies.
                     Thirty. two States do not use CCI edits or a commercial edit package but
                     have other edits in place. States ' edits include some that are
                     comparable to CCl edits.
                     Two States reported that their systems do not include any edits to deny
                     services performed by a provider on the same day for the same
                     beneficiary. Another two States did not respond to our survey.
                     Thirt-nine State Medicaid             agencies paid $54 millon in 2001 for
                     services that would have been denied based on the National Correct
                     Coding Initiative edits. 
 Thirty- nine States had provided 2001 Medicaid
                     claims data at the time of our review. The 39 States paid $150 milion
                     in 2001 for 3. 2 million services involving CCI code pairs that were
                     performed by a provider on the same day for the same beneficiary.
                     These States paid $57 million for services involving the second code in a
                     CCI code pair , the servces that CCI usually does not allow. Ofthis
                     amount , $54 milion (94 percent) was paid for services that would have
                     been denied based on CCI edits. The remaining $3 milion would have

                     been appropriate according to the CeI edits since a valid CCI modifier
                     was included with the code pair.
                     The amount paid for services that would have been denied based on the
                     CCI edits varied widely by State. Payments in the 39 States ranged
                     from $33 491 to over $9 milion. States that reported using some or all
                     ofthe CCI edits paid $4. 1 million for servces that would have been
                     denied based on CCl edits. The States that use a commercial edit
                     package paid $5 million for services that would have been denied based
                     on CCI edits. States that use other edits paid $44. 1 milion for services
                     that would have been denied based on CCI edits.




OEI- 03. 02. 00790   APPLYING THE NATIONAL CORRECT CODING INITATIVE TO MEDICAID SERVICES               III
                      Nearly half of the $54 milion in payments for services that CCI edits
                      would have denied were made for code pairs in the Medicine category.!
                      Services in this category include psychiatry, physical therapy,
                      cardiovascular , and pulmonary servces. Just 75 code pairs made up
                      75 percent of the payments for Medicine services that would have been
                      denied based on the CCI edits.


                      RECOMMENDATION
                     Although most States have some edits in place to prevent inappropriate
                     payments for services biled by a provider for the same beneficiary and
                     same date of service , few States use CCI edits in processing their
                     Medicaid claims. States are not required to use CCI edits; however , by
                     using these edits , States could promote correct coding by providers and
                     prevent payment for servces that would be denied based on CCI edits.
                     At the time of our review , States could use their own local codes to
                     identify services. However , under the Health Insurance Portability and
                     Accountability Act , States are now required to use a uniform national
                     coding system. A standardized coding system increases the potential for
                     reducing inappropriate Medicaid payments through the use of CCI
                     edits.
                     CMS should encourage States to explore the use of CCI edits. 


                     recommend that CMS encourage States to explore the use of CCI edits
                     within their Medicaid programs. We found that a small number ofCCI
                     edits in the Medicine category made up a large portion of Medicaid
                     payments for services that CCI edits would have denied. Therefore , if
                     implementing the entire CCI edit package is not practical , States may
                     want to evaluate which CCI edits would produce the greatest reduction
                     in payments in their Medicaid programs.


                     AGENCY COMMENTS
                     CMS concurred with our recommendation and stated that it                       wil
                     distribute our final report to each of its 10 regional offces so that the
                     regional offces can work with States to explore the use of CCI edits.
                     The complete text of CMS' s comments can be found in Appendix C.

                     1 The Medicine category is represented by codes 90000-
                                                                             99199 and 99500- 99600 from the
                      American Medical Association Current Procedural Terminologymanual.          These include
                      codes for non-invasive or minimally invasive services that are not considered open
                      surgical procedures or evaluation and management services.


OEI- 03. 02. 00790   APPLYING THE NATIONAL CORRECT CODING INITIATIVE TO MEDICAID SERVICES
......                   ...........
                              . .. . . . .. . ............
                                                . .. . .. ... . .. . . ... .........               . . .............
                                                                              ... ..... ... .... ....
                                                               ........................................ . ..... . .. ... ... ... . .. '". .. .. .. ... .. .. . . ..
                                                                                                          ..... .                                                ..




   B L E



    ABSTRACT                                                                                                        .....................1

    EXECUTIVE SUMMARY


    I NT RO DU CT I ON................                                                      ................................. 1



    FINDINGS
                                                                                                                                         ... ..... ... 6


                Most States do not use CCI edits..........................................................


                Medicaid paid $54 milion for servces involving CCI code pairs....... 7


    RECOMMENDATION
                                                    ............................................ 9




    A P PEN D ICE S . . . . . . . . .


               A: State Medicaid Agencies '                                    Use of Automated Edits
                  and Payments for Services Involving CCI Code Pairs................


               B: Top 75 Services in the Medicine Category that CCI Edits
                  Would Have Denied........................................................ ..... 12

               C: Comments from the Centers for Medicare & Medicaid
                  Services. .                                                                                                               ... .. .... .. . .. 14


    A C K NOW LED G MEN T S .. . . . . .
                     OBJECTIVE
                     To determine (1) the extent to which State Medicaid agencies use the
                     National Correct Coding Initiative (ecl) edits or similar edits and
                     (2) the extent to which the Medicaid program paid for services that
                     would have been denied if State Medicaid agencies implemented the
                     CCI edits used by the Medicare program.


                     BACKGROUND
                     The Medicaid program was established in 1965 under Title XIX of the
                     Social Security Act. Financed by a Federal-State partnership, the
                     Medicaid program covers health servces for approximately 40 million
                     people including children ,  the aged , blind , or disabled , and people who
                     are eligible to receive federally assisted income maintenance payments.
                     In fiscal year 2001 , total Medicaid expenditures were $228 bilion. Each
                     State Medicaid agency administers its own program within Federal
                     guidelines , and coverage policies may vary from State to State.
                     All State Medicaid agencies are required by law to implement pre- and
                     post- payment claims analysis in their claims processing systems. 2 As
                     part of pre- payment claims review , States use computerized or
                     automated edits programmed into their claims processing systems. The
                     edits are designed to prevent excessive payments by detecting
                     inappropriate or unnecessary servces. States are not required to use a
                     single standardized edit package; each State may determine which edits
                     to implement in its claims processing system.
                     While States ' edits may differ , the Health Insurance Portability and
                     Accountability Act requires that States use standardized code sets such

                     as medical diagnostic codes and medical procedure codes for electronic
                     claims transactions. This requirement went into effect on October 16
                     2003. However , the Centers for Medicare & Medicaid Services (CMS)
                     granted a 3- month extension for States to use local codes until
                     December 31 2003.

                     National Correct Coding Initiative
                     In January 1996 , CMS implemented the CCI in the Medicare program.
                     This initiative was developed to promote correct coding of health care
                     services by providers and to prevent Medicare payment for improperly

                     2 42 D.   C. 9 1396a.



OEI. 03. 02- 00790   ApPlYING THE NATIONAL CORRECT CODING INITIATIVE TO MEDICAID SERVICES
                      coded services. CMS developed these coding policies based on coding
                      conventions defined in the American Medical Association Current
                      Procedural Terminology 
         manual , national and local policies and edits
                      coding guidelines developed by national societies , analysis of standard
                      medical and surgical practices , and a review of current coding practices.
                      Although use of CCI edits is mandatory in the Medicare program , State
                     Medicaid agencies are not currently required to use these edits in
                     processing their claims. However , the edits would be applicable to the
                     Medicaid program since they are based on general correct coding
                     principles. The CCI edits are currently available to download from
                     CMS' s Web site.

                     The CCI edit fies contain pairs of Healthcare Common Procedure
                     Coding System (HCPCS) codes that generally should not be biled
                     together by a provider for the same beneficiary and same date of service.
                     One type of edit prevents payment for servces that are components of a
                     more comprehensive procedure. When comprehensive and component
                     codes are biled together ,  Medicare pays for the comprehensive code but
                     not the component code. For example , if an infusion procedure is
                     performed , the placement ofthe catheter should not be biled separately
                     because the placement of the catheter is considered a component of the
                     infusion procedure. Therefore , according to the CCI edit , if both
                     services are biled , only the comprehensive code for the infusion
                     procedure would be paid. Another type of edit deals with mutually
                     exclusive code pairs. These edits            prevent payment for services that
                     cannot reasonably be performed together. When mutually exclusive
                     codes are biled together ,        Medicare generally pays for the least costly
                     code.


                     METHODOLOGY
                     State Medicaid Agency Survey
                     To determine if State Medicaid agencies use CCI edits or any edits
                     similar to CCI edits , we conducted a mail survey of the Medicaid
                     agencies in all 50 States and the District of Columbia. For
                     convenience , we wil refer to the District of Columbia as a State
                     throughout this report. We asked States whether or not they use the
                     CCI edit package and , if applicable , when they implemented the CCI
                     edits. We also asked States to describe any other types of automated
                     pre- payment edits they have in place dealing with coding issues. We
                     compared those States that reported using CCI edits to those States

OEI- 03. 02. 00790   ApPLYING THE NATIONAL CORRECT CODING INITIATIVE TO MEDICAID SERVICES
                     that did not in terms of the dollars paid for services that CCI edits
                     would have denied. We collected our data from May through
                     July 2003. Forty' nine of the fifty' one States completed the survey, a
                     response rate of 96 percent.
                     National Correct Coding Initiative Edits
                     We obtained CMS' s data on CCI edits for the fourth quarter of 2001.
                     The CCI edits are updated quarterly; however , the fourth quarter CCI
                     edit update includes all prior additions and deletions of code pairs
                     through the end of 2001. Since we reviewed 2001 Medicaid data , we
                     removed all CCI edits with deletion dates prior to 2001 as well as CCI
                     edits that were retroactively deleted during 2001. This left 123 316 CCI
                     code pairs for our review.
                     The CCI edits are arranged so that the second code in a code pair is
                     the service that is usually denied. In some instances , a modifier may
                     be included that would allow both services in a CCI code pair to be
                     paid. A modifier is a two-digit code            that further describes the service
                     performed. There are 35 modifiers that may be used to bypass CCI
                     edits. Each CCI code pair has a modifier indicator that determines
                     whether a modifier can be used.
                     Medicaid                       System
                                  Statistical Information

                     To determine if State Medicaid agencies paid for services that CCI
                     edits would have denied , we matched the CCI edits against CMS'
                     Medicaid Statistical Information System (MSIS) 2001 claims data for
                     the 39 States that had provided data at the time we began our review.
                     States submit Medicaid enrollment , payment , and utilization data to
                     CMS for entry into the MSIS.
                     From the claims data file containing non -institutional servces , we
                     identified fee-for-service claims that involved CCI code pairs billed by
                     a provider for the same beneficiary and same date of service. To
                     determine if any of these services would have been denied based on
                     CCI edits , we compared the date of service with the edit's effective
                     date. This enabled us to determine whether the Medicare CCI edit
                     was in place on the date the Medicaid services were performed.
                     We identified 3. 2 milion services involving active CCI code pairs
                     biled by a provider for the same beneficiary and same date of service.
                     Medicaid paid $150 milion for these services in 2001. We then
                     reviewed the data to determine if a modifier was allowed with the
                     code pair and whether an appropriate modifier was included.


OEI- 03. 02. 00790   ApPLYING THE NATIONAL CORRECT CODING INITIATIVE TO MEDICAID SERVICES
                      Based on our review , we calculated the total amount Medicaid paid
                      for services that CCI edits would have denied. The total paid
                      represents the amount Medicaid paid for the second servce in a CCI
                      code pair when:
                        1. The code pair did not allow a modifier.


                        2. The code pair allowed a modifier ,             but an appropriate modifier was
                             not included.


                      Data Limitations
                      CCI edits are made up of national HCPCS codes. Many States used
                      local codes at the time of our review; however , our review was limited
                      to national HCPCS codes that were part ofthe CCI edits. All States
                      did use some national HCPCS codes during our review , and it is these
                     services that are included in our calculation of the amount Medicaid
                     paid that CCI edits would have denied. Services biled with local
                     codes are not captured by this review.
                     In addition , our data indicated that most State Medicaid agencies
                     utilzed the same modifiers as those used in the Medicare program.
                     However , State Medicaid agencies also had the option to use their
                     own unique modifiers. It is possible that States used local modifers
                     that would have allowed CCI edits to be bypassed; however , these
                     modifiers would not have been recognized as valid for our review.
                     Therefore , those services would be included in our calculation of the
                     amount Medicaid paid- that CCI edits would have denied.
                     For our analysis , we used the modifier indicator that was attached to
                     the code pair in the fourth quarter 2001 CCI update. However , some
                     modifier indicators changed during 2001 , meaning that the code pair
                     changed from allowing a modifier to not allowing a modifier or vice
                     versa. Our calculations are based on the edits that were effective
                     during 2001 and their associated modifier indicator from the fourth
                     quarter of 2001.


                     Payments for some services may have been included in our
                     calculations even if they involved adjusted payments. Adjustments
                     may have occurred when two services in a CCI code pair were
                     performed on the same day but biled to the Medicaid program
                     separately. In this case , payment for both services may have been
                     correct if payment of the second service was reduced to account for the
                     payment of the service billed first. Only a manual review of claims
                     history data could determine if the services were paid appropriately

OEI. 03. 02- 00790   ApPLYING THE NATIONAL CORRECT CODING INITIATIVE TO MEDICAID SERVICES
                      due to such adjustments; we did not conduct a manual review of the
                      data.
                      Finally, our calculations do not include any payments for services that
                      CCI edits would have denied for the 12 States that had not submitted
                      claims data to the MSIS at the time of our review.
                      This study was conducted in accordance with the
                                                                                    Quality Standards for
                      Inspections        issued by the President' s     Council on Integrity and
                      Effciency.




OEI- 03. 02- 00790   ApPLYING THE NATIONAL CORRECT CODING INITIATIVE TO MEDICAID SERVICES
                                                                                        Only 7 of 49 State Medicaid
                     Most State Medicaid agencies do not use the
                                                                                        agencies that responded to
                          National Correct Coding Initiative edits.
                                                                           our 2003 survey reported
                               that they use CCI edits in processing their claims. 3 However , these
                               States do not all use CCI edits to the same extent.
                                  o Two States reported that they use all CCI edits.

                                  o One     State uses all CCI edits except those for anesthesia services.


                                  o Two States use CCI edits related to surgical codes , but one uses
                                    these edits for post- payment rather than pre' payment review.
                                 o Two States use just a small number of CCI edits. One State uses
                                   149 CCI edits , and another uses 16.
                               States ' Use of Commercial Edit Packages
                               Another eight States use a commercial edit package that includes edits
                               to prevent payment for services performed by a provider on the same
                               day for the same beneficiary. Commercial edit packages may be
                               purchased by the States and modified to accommodate each State
                               coverage policies. While commercial edit packages may include edits for
                               services covered by Medicaid that might not be captured by the CCI
                               edits , they may not include all CCI edits currently used by Medicare.
                               States ' Use of Other Edits
                               Thirty" two States do not use CCI edits or a commercial edit package but
                               have other edits in place. States ' edits include some that are
                               comparable to CCI's comprehensive/component and mutually exclusive
                               edits. A few States have edits that are based on CCI criteria.

                               Two States reported that their systems do not include any edits to deny
                              services performed by a provider on the same day for the same
                              beneficiary. A breakdown ofthe types of edits each State uses is
                              presented in Appendix A.
                               Several States are planning to change their editing packages in the near
                              future. Three States areplanning to implement the entire CCI edit
                              package. One State is adding more CCI edits , and one State is
                              considering implementing some CCI edits. Another State is dropping


                              3 The number of active edits in the CCl edit package at the time of our survey was
                                approximately 200 000 edits.




OEI. 03. 02. 00790            ApPLYING THE NATIONAL CORRECT CODING INITATIVE TO MEDICAID SERVICES
                              the CCI edits that they used in their post- payment review and
                              switching to a pre- payment commercial edit package.


                      Thirt-nine State Medicaid agencies paid                         Thirty' nine States had provided
                     $54 milion in 2001 for services that would                       2001 Medicaid claims data at
                      have been denied based on the National          the time of our review. The
                                                                      39 States paid $150 millon in
                                Correct Coding Initiative edits.
                                                                      2001 for 3. 2 milion servces
                              involving CCI code pairs that were performed by a provider on the same
                              day for the same beneficiary. These States paid $57 millon for services
                              involving the second code in a CCI code pair , the services that CCI
                              usually does not allow. Ofthis amount , $54 milion (94 percent) was
                              paid for services that would have been denied if CCI edits had been
                              used in the Medicaid program. The remaining $3 milion would have
                              been appropriate according to the CCI edits since a valid CCI modifier
                              was included with the code pair.
                              State Payments for Services CCI Edits Would Deny
                              The amount paid for servces that would have been denied based on the
                              CCI edits varied widely by State. Payments in the 39 States ranged
                              from $33 491 to over $9 millon.   Twenty-four States each paid over
                              $500 000 for services that would have been denied based on CCI edits.
                              More than half of the $54 milion in payments for services that would
                              have been denied based on CCI edits were made by four States. These
                              States did not use CCI edits. A list of States ' payments for services that
                              would have been denied based on CCI edits is included in Appendix
                              We found that even those States that reported using some or all CCI
                              edits could reduce their payments for services involving CCI code pairs.
                              For example , the two States that only use those CCI edits related to
                              surgical procedures each paid over $500 000 for services that CCI edits
                              would have denied. One State that reported using all of the CCI edits
                              stil made payments for CCI code pairs. However , these payments may
                              have been the result of the use of local modifiers , modifier indicator
                              changes made during 2001 , or adjustments made when the two services
                              in a code pair were biled separately. Medicaid claims data were only
                              available for five of the seven States that use CCI edits; therefore , we
                              could only calculate the amount paid for services involving CCI code
                              pairs for these States. These five States paid a total of $4. 1 milion for
                              services that would have been denied based on CCI edits.


OEI- 03. 02. 00790            ApPLYING THE NATIONAL CORRECT CODING INITIATIVE TO ME. DICAID SERVICES
                     NG

                       We found that the eight States that reported using a commercial edit
                       package paid between $127 444 and $1.3 million for services that would
                       have been denied based on CCl edits. These   eight States paid a total of
                       $5 milion for services that would have been denied based on CCI edits.
                       We were able to calculate the amount paid by 24 of the 32 States that
                       use other edits for servces involving CCI code pairs , since claims data
                       were only available for these States. The 24 States paid a total of
                       $44. 1 million for services that would have been denied based on CCI
                       edits. These States paid an average of $1.8 milion for servces
                       involving CCI code pairs performed by a provider on the same day for
                       the same beneficiary.
                       Of the two States that do not have any edits to deny servces performed
                       by the same provider on the same day for the same beneficiary, one paid
                       $228 835 for services involving the second code in a CCI code pair. This
                      State was one of the smallest States in terms of total Medicaid
                      expenditures. The other State reported that their new claims
                      management system wil incorporate the CCI edits. We did not have
                      the claims data required to calculate payments made by this State.
                      Most Payments Made for Few Code Pairs
                      We found that Medicaid made payments for 17 797 ofthe 123 316 CCI
                      code pairs. Nearly half of the $54 million in Medicaid payments were
                      made for code pairs in the Medicine category. 4 Services in this category
                      include psychiatry, physical therapy, cardiovascular , and pulmonary
                      services. One code pair , relating to psychotherapy services , made up
                      12 percent ofthe Medicine payments that would have been denied based
                      on CCI edits. In fact , just 75 code pairs made up 75 percent ofthe
                      payments for Medicine services that would have been denied based on
                      CCI edits. A list of the top 75 Medicine code pairs is presented in
                      Appendix B. Payments for other categories of services such as
                      Anesthesia , Surgery, Radiology, Pathology, and Evaluation and
                      Management ranged from less than 1 percent to 10 percent of Medicaid
                      payments for services CCI edits would have denied.




                      4 The Medicine category is represented by codes 90000­

                                                                                 99199 and 99500- 99600 from the
                          American Medical Association Current Procedural Terminology        manual. These include
                          codes for non-invasive or minimally invasive services that are not considered open
                          surgical procedures or evaluation and management services.



OEI. 03. 02. 00790    ApPLYING THE NATIONAL CORRECT CODING INITATIVE TO MEDICAID SERVICES
                     Although most States have some edits in place to prevent inappropriate
                     payments for services biled by a provider for the same beneficiary and
                     same date of service , few States use CCI edits in processing their
                     Medicaid claims. States are not required to use CCI edits; however , by
                     using these edits , States could promote correct coding by providers and
                     prevent payment for services that would be denied based on CCI edits.
                     At the time of our review , States could use their own local codes to
                     identify services. However , under the Health Insurance Portability and
                     Accountability Act , States are now required to use a uniform national
                     coding system. A standardized coding system increases the potential for
                     reducing inappropriate Medicaid payments through the use of CCI
                     edits.
                     CMS should encourage States to explore the use of CCI edits. We
                     recommend that CMS encourage States to explore the use of CCI edits
                     within their Medicaid programs. We found that a small number of CCI
                     edits in the Medicine category made up a large portion of Medicaid
                     payments for services that CCI edits would have denied. Therefore , if
                     implementing the entire CCI edit package is not practical , States may
                     want to evaluate which CCI edits would produce the greatest reduction
                     in payments in their Medicaid programs.
                     Agency Comments
                     CMS concurred with our recommendation. If implementing the entire
                     CCI edit package is not practical , CMS stated it wil encourage States to
                     evaluate which edits would produce the greatest reduction in payments
                     in their Medicaid programs. CMS wil also distribute our final report to
                     each of its 10 regional offces so that the regional offces can work with
                     States to carry out our recommendation. The complete text of CMS'
                     comments can be found in Appendix C.




OEI. 03- 02. 00790   ApPLYING THE NATIONAL CORRECT CODING INITIATIVE TO MEDICAID SERVICES
.!.-..-.-,"'-!. -
          "'--
          :.-.
            -..
            ""-
             g;




                                State Medicaid Agencies ' Use of Automated Edits and
                                   Payments for Services Involving CCI Code Pairs




                                                                                                      $555 793      $217 202


                                                                                                       650 148      $562 969
                     Use all edits except for
                     anesthesia                                                                       $261 845        $50 303
                                                                                                   $21 756 623       226 709
                                                                                                       170, 824       150 073
                                                                                                       199 404      $534 222
                                                                                                      $573 044      $228 835
                                                                                                       $77,496       $33 491
                                                                                                       681 198    $1,495 651
                     Use all edits                                                                     924 370      $935 291


                                                                                                       971 321      $884 148
                                                                                                       272 965      $392 153
                                                                                                      $935 748      $298 243
                                                                                                       763,421       821 799
                                                                                                    $1,446 315      $489 905
                                                                                                       050,480       127 206
  --u                                                                                                  933 439       305 106
                                                                                                       723 677       104 502
                                                                                                     $336 867       $125 260


                                                                                                     $863 636       $304 762


                                                                                                  $10,415,460        046 113
      :c.:                                                                                             004 852      $531,470
                     Use edits related to
                     surQical codes                                                                   544 359      $543 244
                     Use 149 edits                                                                    403,401       035 207
                     Use all edits

                                                                                                       183, 193    $741 180
                                                                                                     $317 045      $122 696
                                                                                                  $14 643, 723    $6, 116 975




OEI. 03. 02- 00790                   ApPlYING THE NATIONAL CORRECT CODING INITIATIVE TO MEDICAID SERVICES
                                                                                                  $25, 128 739             180 167
                                                                                                     $978 519             $268 843
                                                                                                       125 478            $528, 994
                                                                                                      575 242             $617 050


                                                                                                      041 905              054 331


                                                                                                     $232 678              $50 329


                                                                                                     $501, 267            $127,444
                                                                                                   $3, 288 616             300, 869
                                                                                                     $799 108             $317 790
                     Use 16 edits

                                                                                                      132 297            $902 217

                                                                                                      824 796            $504 312

                                                                                                     $634 886            $230 803




Sources: 2003 OEI survey of State Medicaid agencies, CMS' s 2001 MSIS fee- for-service claims data for 39 States.
1 Since State had not submitted MSIS claims data at the time of our review
                                                                             , we were unable to calculate payments for services
   that CCI edits would have denied.
2 This State reported using all CCI edits; however
                                                  , we identified payments that should have been denied. This could be due to
   adjusted payments , modifier indicator changes during 2001 , or the use of local modifiers by the State.
3 State did not respond to survey.
4 Five of the seven States that use CCI edits had the edits in place in 2001. North Carolina and North Dakota implemented the
  edits in 2002.
5 This column was calculated based on payments for the second code in the CCI code pairs.




OEI. 03. 02. 00790                  ApPLYING THE NATIONAL CORRECT CODING INITIATIVE TO MEDICAID SERVICES
                    A P                           I X




                   Top 75 Services in the Medicine Category that CCI Edits Would Have Denied




        90847     Family psychotherapy w/patient                90804     Individual psychotherapy, offce , 20-30 min             761 811
        96410     Chemotherapy infusion method                  90780     IV infusion therapy, 1 hour                           $936 033
        95903     Motor nerve conduction test , with F-wave     95900     Motor nerve conduction test , without F-wave          $917 724
        97530     Therapeutic activities                        97116     Gait training therapy                                 $711 771
        90853     Group psychotherapy                           90804     Individual psychotherapy, offce , 20- 30 min          $698, 342
        97140     Manual therapy                                97530     Therapeutic activities                                $551 683
        90806     Individual psychotherapy, off , 45-50 min     90862     Medication management                                $549 513
        90853     Group psychotherapy                           90862     Medication management                                $543 913
        90853     Group psychotherapy                           90806     Individual psychotherapy, off , 45- 50 min           $516 779
        90853     Group psychotherapy                           90816     Indiv psychotherapy, hosp, 20-30 min                 $471 111
       96412      Chemotherapy, infusion method add-on          90780     IV infusion therapy, 1 hour                           $470 084
       90857      Interactive group psychotherapy               90853     Group psychotherapy                                   $353 131
       93505      Biopsy of heart lining                        93501     Right heart catheterization                           $351 673
       90847      Family psychotherapy w/patient                90806     Individual psychotherapy, off , 45- 50 min            $329, 337
       90853      Group psychotherapy                           90801     Psychiatric diagnostic interview                      $317 970
       92980      Insert intracoronal) stent                    92982     Coronal) artel) dilation                             $297 530
       90853      Group psychotherapy                           90847     Family psychotherapy w/patient                       $280 970
       90804      Indiv psychotherapy, offce , 20-30 min        90862    Medication management                                 $268 097
       94060      Evaluation of wheezing                        94375    Respiratol) flow volume loop                          $261 868
       96530      Pump refillng, maintenance                    96410    Chemotherapy infusion method                          $258 976
       97530      Therapeutic activities                        97535    Self-care management training                         $240 296
       99233      Subsequent hospital care                      94657    Continued ventilator management                       $202 131
       92980      Insert intracoronal) stent                    93556    Imaging, cardiac catheterization                      $200 649
       94010      Breathing capacity test                       94375    Respiratol) flow volume loop                          $190 105
       96530      Pump refiling, maintenance                    96412    Chemotherapy, infusion method add-on                  $185 783
       90847      Family psychotherapy w/patient                90801    Psychiatric diagnostic interview                      $181 727
       90806      Individual psychotherapy, off , 45- 50 min    90801    Psychiatric diagnostic interview                      $180 289
       93005      Electrocardiogram (ECG), tracing              93041    Rhythm ECG , tracing                                  $179 786
       92508      Group speech/hearing therapy                  92507    Individual speech/hearing therapy                     $172 816
       94060      Evaluation of wheezing                        94664    Aerosol or vapor inhalations                          $169 610
       96410      Chemotherapy infusion method                  90781    IV infusion , additional hour                         $157 546
       90847      Family psychotherapy w/patient                90862    Medication management                                 $150, 891
       97150      Group therapeutic procedures                  97110    Therapeutic exercises                                 $150 315
       90847      Family psychotherapy w/patient                90816    Individual psychotherapy, hosp, 20-30 min             $140 729
       92980     Insert intracoronal) stent                     93555    Imaging, cardiac catheterization                      $139 440
       97110     Therapeutic exercises                          97002    Physical therapy reevaluation                         $136 902
       97150      Group therapeutic procedures                  97530    Therapeutic activities                                $134 226
       90853      Group psychotherapy                           90818    Individual psychotherapy, hosp, 45-50 min             $129 144
       97012      Mechanical traction thera                     97140    Manual thera                                          $129 029

1 We considered a code
                            pair to be in the Medicine categol) if the Column 2 code , the code that would be denied by CCI , was in the Medicine
 categol). The Medicine categol) includes codes in the range 90000- 99199 and 99500- 99600 from the American Medical Association
 Current Procedural Terminology       manual.




    OEI. 03. 02. 00790                 ApPLYING THE NATIONAL CORRECT CODING INITIATIVE TO MEDICAID SERVICES
                            x ­





   93000      Electrocardiogram (ECG), complete              93040     Rhythm ECG with report                         $120, 979
   99232      Subsequent hospital care                       94657     Continued ventilator management                $116, 664
   97113      Aquatic therapy/exercises                      97110     Therapeutic exercises                          $116 346
   94060      Evaluation of wheezing                         94640     Airway inhalation treatment                    $115 214
   90804      Indiv psychotherapy, offce , 20- 30 min        90801     Psychiatric diagnostic interview               $111 257
   96115      Neurobehavioral status exam                    96111     Developmental test , extended                  $103 773
   92506      Speech/hearing evaluation                      92507     Individual speech/hearing therapy              $103 034
   94060      Evaluation of wheezing                         94010     Breathing capacity test                         $97 651
   93350      Echo transthoracic                             93307     Echo exam of heart                             $95 315
   90925      ESRD-related services , day                    90935     Hemodialysis , one evaluation                  $92 134
   97530      Therapeutic activities                         97113     Aquatic therapy/exercises                      $90, 237
   93017      Cardiovascular stress test                     93005     Electrocardiogram , tracing                    $88 200
   90801      Psychiatric diagnostic interview               90862     Medication management                          $87 895
   96412      Chemotherapy, infusion method add-on           90781     IV infusion , additional hour                  $87 706
   90846      Family psychotherapy w/o patient               90806     Individual psychotherapy, off , 45- 50 min     $81 090
   94640      Airway inhalation treatment                    94664     Aerosol or vapor inhalations                   $80, 540
   97140      Manual therapy                                 97124     Massage therapy                                $79, 644
   92982      Coronary artery dilation                       93556     Imaging, cardiac catheterization               $79 064
   93621      Electrophysiology evaluation                   93620     Electrophysiology evaluation                   $78, 970
   93641      Electrophysiology evaluation                   93620     Electrophysiology evaluation                   $78 909
   97504      Orthotic training                              97110     Therapeutic exercises                          $76 668
   96530      Pump refilling, maintenance                    96408     Chemotherapy, push technique                   $67 750
   93303      Echo transthoracic                             93307    Echo exam of heart                              $67 234
   90806      Individual psychotherapy, off , 45- 50 min     90805    Indiv psychotherapy, off , 20- 30 min w/e&m     $65 677
   98941      Chiropractic manipulation                      97140    Manual therapy                                  $65,446
   93010      Electrocardiogram (ECG) report                 93042    Rhythm ECG , report                             $63, 228
   90816      Indiv psychotherapy, hosp, 20- 30 min          90801    Psychiatric diagnostic interview                $62 695
   90853      Group psychotherapy                            90817    Indiv psychotherapy, hosp, 20­     , w/e&m      $61 398
   97035      Ultrasound therapy                             97022    Whirlpool therapy                               $59, 850
   90847      Family psychotherapy w/patient                 90812    Interact indiv psychotherapy, off, 45- 50 min   $55 142
   95810      Polysomnography, 4 or more                     95811    Polysomnography w/cpap                          $53 515
   99211      Offce/outpatient visit , established patient   90862    Medication management                           $51 028
   90853      Group psychotherapy                            90805    Indiv psychotherapy, off , 20- 30 min w/e&m     $50 831
   76856      Ultrasound exam , pelvic , complete            93975    Vascular study                                  $50 793
   90925     ESRD-related services , day                     90937    Hemodialysis , repeated evaluation              $50 342
   92553     Audiomet  , air & bone                          92555    Speech threshold audiomet                       $50 087




OEI. 03- 02- 00790                 ApPLYING THE NATIONAL CORRECT CODING INITATIVE TO MEDICAID SERVICES
                                          Comments from the
                               Centers for Medicare & Medicaid Services




                     DEAI OFHE                           HU SBCE                                          C$   fOS   M$d & ModlIj &llVce
                                                                                                          AdmtntrAtar
                                                                                                          wa.        DC 2001
             DATE:               AUG 1 9
             TO:             Geoge F. Grb
                             Act Deputy Inpecr Ge                       for Evaluati an Inpem
             FROM:           Mark B. McClellan 
             h. .
                             Admnisttor                   ilthJ
                                                         IlW I
             SUBJCf: Ofce of Inper Geer (010) Dr                              Re         Applyi 1M National Correct
                             Cog Initiative to       Medicai Servces.        " (OEI-0- OZ-Q790)


             Th you for the oppunty to                      an commt on th above-f8et(1ed                 drft reprt.    OIG
             reewed the applicailty of a         of edts deelope by Medica, which baveprven
             effecve in idenfy
             co
                                          ar
                                         of abuse du to up-coing or other inappprate use of varous
                  with Tite XVI. 010 thought ther woud be vaue in aplyi the $8e cong edts
             to Medcad clai on a samle bas to se wheter. and to wha extent, use of such edits would
             prve similarly usel in Title          XI
                                                GIG concluded that the              Co
                                                                             Cong Initiatve (CCl)
             migh have considerable mert. even ona limte bas. since a sm numbe of edits yielded
             large   rets.
             The Ceter for Medica & Medicad Serce (CMS) aplauds OIO' efrt in ths rega.
             We beieve ther would be value in encourging
             remmendation and, wher
                                                                        st
                                                         to look seousy into OIO'
                                               appat, incorprae these                     th meczed
                                                                                   or simila ediUi into
             claims procsig syste.             CMS will not madae su edts at ths tie du to the varety of
             systes an aproaches   in stae Medicaid Maagement Informaton Systes. Howe, we
             as our regina offce          sys
                                          Stff to work closely with stae systems staff to gl wher
             value can be gaed from the oro' s ver usful analysis.


             We appreat      the effor tht went into ths      report and the oppoity to reiew an comment on
             th issues   it rase. Our reponse to the om audit remmention follows.

             OIG Recemmendatlon.

            The CM should enurge
            prgr.
                                               st
                                               to exlore th us of CCI edts withn thei Medcad
                       OIG found tht a sml numbe of CCI edts in the Meici category           up a          ma
            lare porton of Medcad payments for            sece
                                                            that CCI edts would bve dened. Therre. if
            implementing the entire eCI edt packge    is notpratica stas may wa to evaluate wbich CCI
            edits would prduce the        grea
                                            teducton in payments in thei Medc:d                  prgr.

OEI. 03. 02. 00790                 ApPLYING THE NATIONAL CORRECT CODING INITIATIVE TO MEDICAID SERVICES
           Page 2 -   Gerge F. Grob

           CMS Response

           We concur. Becuse a small number of edts in the Medcie cateory made up a lage porton
           ofMed  aid payments for serce th CCI edts would have dened if implementig the entire
           CCI edt pacage is not prca , we wil encourge states to evaluate which edts would
           produce the greatest reducton in payments in thei Medcad        prgr.   Once the OIG' s reort is
           published in fial, we will distbut copies to each of our 10 regional offces in order for them to
           work with the  sta cato      out OIG"s recmmendaton.




OEI. 03- 02. 00790             ApPLYING THE NATIONAL CORRECT CODING INITIATIVE TO MEDICAID SERVICES
                      This report was prepared under the direction of Robert A.Vito
                      Regional Inspector General for Evaluation and Inspections in
                      the Philadelphia regional office , and Linda M. Ragone , Deputy Regional
                      Inspector General. Other principal Offce of Evaluation and Inspections
                      staff who contributed include:
                      Tara J. Bernabe Team Leader
                      Nancy J. Molyneaux Program Analyst
                      Cortney Hayflnger          Program Analyst

                      Linda Frisch Program Specialist
                      Tricia Davis, 
   Director, Medicare and Medicaid Branch


                     Technical Assistance
                     Scott Horning, 
     Program Analyst




OEf. 03. 02. 00790   ApPLYING THE NATIONAL CORRECT CODING INITATIVE TO MEDICAID SERVICES
